NO. ___________

IN THE SUPREME COURT OF THE UNITED STATES

Lamont Owens – Petitioner,
vs.
United States of America – Respondent.

PROOF OF SERVICE

I, David J. Guastello, appointed counsel under Title 18, United States Code
§3006(a) (the Criminal Justice Act), hereby certify that on October 13, 2020 one
copy of the Petition for Writ Certiorari and the Motion to Proceed in Forma
Pauperis in the above-entitled case were mailed by depositing them in a U.S. Postal
Service Depository located at Kansas City, Missouri, first class postage prepaid
addressed to counsel for the respondent:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001.
I further certify that all parties required to be served have been served.

/s/ David J. Guastello
David J. Guastello #57924
The Guastello Law Firm, LLC
811 Grand Blvd., Suite 101
Kansas City, MO 64106
Telephone: 816-753-7171
ATTORNEY FOR PETITIONER

